Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




NURSING HOME ENFORCEMENT:
  PROCESSING DENIALS OF
    MEDICARE PAYMENT




                    Daniel R. Levinson
                     Inspector General

                       May 2008
                     OEI-06-03-00390
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVE
                  To determine the extent to which the Centers for Medicare & Medicaid
                  Services (CMS) and its fiscal intermediaries (FI) appropriately process
                  denials of Medicare payment remedies for skilled nursing facilities that
                  have been found noncompliant with Federal program participation
                  standards.


                  BACKGROUND
                  Denial of payment is an enforcement remedy that CMS may use to
                  address noncompliance with Federal quality of care standards in skilled
                  nursing facilities. CMS is responsible for imposing denial of payment
                  remedies but relies on its FIs to actually identify and reject the relevant
                  Medicare claims. Once CMS instructs an FI to put a remedy into effect,
                  the FI creates an edit, also known as a Medicare Medical Policy
                  Parameter, to identify and suspend claims meeting certain parameters.
                  Those claims are reviewed and then paid, rejected, or returned to the
                  facility as appropriate.

                  We reviewed information and supporting documentation from CMS and
                  FIs for a random sample of cases in which CMS imposed denials of
                  payment for new admissions (DPNA) remedies during fiscal year
                  (FY) 2004. Based on this analysis and follow-up conversations with
                  CMS and FI staff, we identified cases in which denials of payment were
                  processed incorrectly by FIs and the resulting overpayments.


                  FINDINGS
                  During FY 2004, 74 percent of denial of payment remedies were
                  processed incorrectly, resulting in overpayments exceeding
                  $5 million. In 40 percent of cases, errors resulted in one or more
                  inappropriate payments to skilled nursing facilities. These
                  overpayments exceeded $5 million. In the other 34 percent of cases,
                  processing errors occurred but did not result in claims paid in error,
                  either because the facilities did not have new admissions during the
                  remedy periods or because the facilities were aware of the remedies and
                  did not submit claims for new admissions during the remedy periods.
                  Errors were attributable primarily to late processing and problems with
                  CMS’s provision of denial of payment instructions to the appropriate FI.




OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   i
E X E C U T I V E                        S U          M M A R Y


                   Approximately half of claims involving readmissions lacked codes
                   indicating the readmission status, which made these claims appear
                   to be new admissions that should be denied. Although readmission
                   claims are suitable for reimbursement during a DPNA remedy, the
                   absence of appropriate codes causes these claims to appear to be new
                   admissions that should be denied. This creates additional work for the
                   FIs and limits CMS’s ability to verify that claims for new admissions
                   are appropriately denied under a DPNA remedy.


                   RECOMMENDATIONS
                   We recognize that recent changes have the potential to improve
                   processing of DPNAs. First, as part of Medicare contracting reform,
                   work currently conducted by FIs is gradually being assumed by
                   Medicare Administrative Contractors (MAC) and providers will be
                   required to submit claims to a designated MAC. Providers will no
                   longer be permitted to routinely change contractors, which may make it
                   less likely that CMS will send instructions about DPNAs to the wrong
                   MACs. Second, new features of the Automated Service Processing
                   Environment Enforcement Management system may better enable CMS
                   to provide timely notice of DPNAs to the contractors.

                   Although these changes may result in improved processing of DPNAs,
                   they may not fully address all of the types of errors identified in this
                   report. Therefore, we recommend that CMS:
                   Manage DPNA cases to ensure that all DPNA instructions are sent
                   timely and ensure that FIs and MACs retrospectively review cases
                   that are processed late to correct any payment errors.
                   Address communication breakdowns by implementing a standard
                   format to notify FIs or MACs that a DPNA remedy will be in effect
                   and require confirmation that instructions are received and
                   understood.
                   Update guidance on coding readmissions and verifying readmission
                   status for DPNA claims.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS agreed with our recommendations and outlined specific actions
                   that it will take to address each recommendation. These actions include
                   developing new internal procedures to help ensure that CMS effectively

 OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   ii
                  communicates DPNA instructions to FIs and MACs, creating a protocol
                  between CMS and contractors to ensure follow-up notification to CMS
                  that a DPNA was implemented as requested, and updating manual
                  instructions to clarify coding and verification requirements for DPNA
                  readmissions. CMS’s response is included in its entirety as Appendix B.




OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 6

                   In FY 2004, 74 percent of remedies were processed incorrectly . . . 6 


                   Half of claims involving readmissions lacked codes . . . . . . . . . . . 10 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   Agency Comments and Office of Inspector General Response . . . 13 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   A: Estimates and 95-Percent Confidence Intervals . . . . . . . . . . . 15 


                   B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which the Centers for Medicare & Medicaid
                  Services (CMS) and its fiscal intermediaries (FI) appropriately process
                  denials of Medicare payment remedies for skilled nursing facilities that
                  have been found noncompliant with Federal program participation
                  standards.


                  BACKGROUND
                  The Social Security Act (the Act), as amended by the Omnibus Budget
                  Reconciliation Act of 1987, established a survey and certification process
                  to ensure that nursing homes meet Federal standards for participation
                                                             12
                  in the Medicare and Medicaid programs.        The Secretary of the
                  Department of Health and Human Services is responsible for ensuring
                  that these requirements and their enforcement “are adequate to protect
                  the health, safety, welfare, and rights of residents and to promote the
                                                                 3
                  effective and efficient use of public moneys.” To accomplish this, CMS
                  contracts with State agencies to conduct surveys assessing nursing
                  facilities’ compliance with the requirements. If, during a survey, the
                  State agency finds that a nursing home is not in substantial compliance
                  with Federal requirements, CMS may initiate a variety of enforcement
                  actions. Collectively, these actions are known as remedies, the purpose
                                                                                          4
                  of which is “to ensure prompt compliance with program requirements.”
                  Denial of Payment Remedies
                  CMS has two denial of payment remedies for nursing home
                  enforcement. The more severe remedy is to deny payment for services
                  provided to all Medicare and Medicaid beneficiaries, including those
                  who are already receiving care in the nursing home. This remedy would
                  likely cause existing nursing home residents to be relocated. As such,
                  this remedy is rarely used and CMS’s internal guidance documents
                  emphasize that “it is a severe sanction” and should be considered for use
                                                                               5
                  only when other remedies have failed to achieve compliance. The less




                      1   Social Security Act, sections 1819(f)(1) and 1919(f)(1). 

                      2   Omnibus Budget Reconciliation Act, P.L. No.100-203 § 4202 (1987). 

                      3   Social Security Act, sections 1819(f)(1) and 1919(f)(1). 

                      4   42 CFR § 488.402 (2004) and 59 FR 56116 (November 10, 1994). 

                      5   Centers for Medicare and Medicaid Services (CMS), “State Operations Manual,” § 7508. 




OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   1
I N T R O D        U C T             I O N


                    severe remedy is to deny payment only for services provided to
                                                                              6
                    beneficiaries who are newly admitted to the nursing home.
                    CMS has discretion to impose either type of denial of payment remedy
                    in enforcement cases, but is required to impose at least a denial of
                    payment for new admissions (DPNA) under two circumstances:
                    (1) extended noncompliance, i.e., when facilities remain out of
                    compliance with Federal standards longer than 3 months; and
                    (2) repeated instances of substandard quality of care, i.e., three
                                                                                        78
                    consecutive surveys with findings of substandard quality of care.      In
                    effect, this remedy is used for a wide variety of noncompliance offenses.
                    For example, DPNAs may similarly be used for facilities that are cited
                    with a string of unrelated, low-level deficiencies that create a potential
                    for harm to beneficiaries as well as for the most severe instances of
                    immediate jeopardy, which pose serious injury, harm, impairment, or
                    death to beneficiaries.
                    Processing Denial of Payment Remedies
                    CMS is responsible for imposing denial of payment remedies, but relies
                    on FIs to identify and deny the relevant Medicare claims. CMS regional
                    offices initiate the process by providing written instructions to the
                                      9
                    appropriate FI. In order for the FI to process the remedy before claims
                    are received, CMS must provide initiating instructions to the FI prior to
                    the designated effective date of the remedy. CMS must also provide
                    instructions to end the remedy once the facility has achieved
                    compliance. A similar process is used to notify State agencies of the
                    need to deny the relevant Medicaid claims; however, that process is
                    outside the scope of this study.

                    FIs process a remedy by creating a Medicare Medical Policy Parameter,
                    also known as an edit. The edit is part of an electronic screening system
                    that will suspend claims that meet certain parameters. When a denial
                    of payment is put into effect, an edit is created to identify claims for
                    particular providers that are subject to a denial of payment remedy.
                    The edit can be designed to flag only claims with admission dates

                        6   42 CFR § 488.406(a)(2) (2004). 

                        7   Social Security Act, sections 1819(h)(2)(D) and (E). 

                        42 CFR §§ 483.13, 483.15, and 483.25 (2004). Substandard quality of care is defined as 

                        8

                    any deficiency that constitutes immediate jeopardy to a resident’s health or safety; a
                    pattern of widespread actual harm that is not immediate jeopardy; or a widespread
                    potential for more than minimal harm that is not immediate jeopardy, with no actual harm.
                        9   CMS, “State Operations Manual,” § 7506(D).



 OEI-06-03-00390    N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   2
I N T R O D        U C T             I O N


                    during the remedy period. As claims are submitted by skilled nursing
                    facilities, this screening mechanism will suspend claims pending further
                    review by FI staff. Staff verify whether each claim is subject to the
                    denial of payment remedy and pay, reject, or return the claim to the
                    facility as appropriate. If a claim is not suspended by an edit, the claim
                    will be processed through an automated system without further review
                    by FI staff.
                    New Admissions
                    In its 2001 Program Memorandum, “Fiscal Intermediary (FI)
                    Instructions on Applying Payment Bans on Skilled Nursing Facility
                    (SNF) Admissions,” CMS provided detailed instructions to FIs for
                    processing denial of payment remedies, including specific criteria to use
                    in determining which residents fall under the definition of a new
                                 10
                    admission. This guidance has also been incorporated into the
                    “Medicare Claims Processing Manual” and the “Medicare Benefit Policy
                                11 12
                    Manual.”          For the purpose of denial of payment remedies, a new
                    admission is “a resident who is admitted to the facility on or after the
                    effective date of a denial of payment remedy and, if previously admitted,
                                                                      13
                    has been discharged before that effective date.” This definition
                    provides several important distinctions about which residents are
                    subject to the remedy. For example, claims for residents on temporary
                    leave or returning to a facility after treatment at an inpatient hospital
                    are not subject to the remedy. This type of admission is termed a
                    readmission. Additionally, some patients residing in a facility may
                    newly qualify for Medicare or for a new Medicare benefit period during
                    the DPNA remedy period. Because such residents already reside in the
                    facility, they are also classified as readmissions and are exempt from
                    the DPNA restrictions. However, without proper coding on the claim,
                    FI staff may be unable to distinguish between a new admission and a
                    readmission.




                      10 CMS, Program Memorandum, Intermediaries/Carriers, “Fiscal Intermediary (FI)

                    Instructions on Applying Payment Bans on Skilled Nursing Facility (SNF) Admissions,”
                    Transmittal AB-01-131, September 21, 2001.
                      11 CMS, “Medicare Claims Processing Manual,” Chapter 6, § 50 (Rev. 1151,

                    January 11, 2007).
                        12   CMS, “Medicare Benefit Policy Manual,” Chapter 8, § 20.3 (Rev. 58, November 9, 2006).
                        13   42 CFR § 488.401.



 OEI-06-03-00390    N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   3
I N T R O D        U C T             I O N 





                    METHODOLOGY
                    Scope
                    This report focuses on the processing of DPNAs by CMS and its FIs.
                    Although the DPNA remedy spans both the Medicare and Medicaid
                    programs, we did not evaluate the performance of State agencies in
                    denying Medicaid claims subject to the remedy. In 2004, the Office of
                    Inspector General (OIG) released audits of seven State agencies’
                    performance in processing denials of payment during fiscal year (FY)
                         14
                    2001. Additionally, this report focuses specifically on the DPNA
                    remedy and does not address the denial of payment remedy for all
                                                          15
                    Medicare and Medicaid beneficiaries.
                    Sample Selection
                    To assess the performance of CMS and its fiscal intermediaries, we
                    randomly selected 200 denial of payment cases for review. Cases were
                    chosen from a population of 726 skilled nursing facilities identified as
                    having denials of payment that went into effect during FY 2004,
                    i.e., October 2003 through September 2004, the most current data
                    available at the time we began the review.16 Of the 200 cases selected,
                    8 were determined to be ineligible for review. Specifically, three denials
                    of payment were imposed against Medicaid-only facilities and five
                                                              17
                    denials of payment did not go into effect. These ineligible cases
                    reduced our sample size to 192 cases and our projected number of
                    denials of payment from 726 to 697.
                    Data Collection and Analysis
                    For each sampled case, we requested information and supporting
                    documentation from both the CMS regional office and the FI responsible
                    for the case. From CMS we requested copies of the instructions sent to
                    the FI, directing it to process the DPNA. From the FI we requested


                       14 See, for example, OIG, “Nursing Homes and Denial of Payment Remedies in the State

                    of Florida,” A-04-03-06007 (February 2004). Other States reviewed include Illinois,
                    Indiana, Massachusetts, Michigan, Ohio, and Pennsylvania.
                        15 Only one denial of payment for all Medicare and Medicaid beneficiaries remedy was
                    identified in our sampling frame.
                        16 Some facilities were represented more than once in the sampling frame because
                    multiple denials of payment went into effect during the specified timeframe.
                        17 In the five sample cases for which denials of payment did not go into effect,
                    documentation was inadequate to determine prior to sample selection that either: (1) the
                    cases were not in effect, or (2) a settlement agreement revised the compliance and/or
                    effective dates, which effectively nullified the remedy.



 OEI-06-03-00390    N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   4
I N T R O D        U C T             I O N


                    documentation that the denial of payment was processed and
                    information about the associated dollar amounts. We reviewed
                    documentation for each case to determine whether the DPNA was
                    processed correctly and to identify causes of errors. In addition, we
                    independently identified claims in the National Claims History that
                    appeared to have been paid in error—i.e., claims that appeared to have
                    been paid for new admissions while the DPNA was in effect. All
                    identified errors were verified by the appropriate FI and recoupment
                    actions were requested when appropriate.

                    Our discussion of procedural breakdowns is the result of our original
                    documentation requests, responses to the error verification, and
                    follow-up conversations with both CMS and FI staff.

                    Confidence intervals for key statistics are presented in the appendix
                    and use a 95-percent level of confidence. They were calculated using
                    standard statistical formulas, including an adjustment, i.e., finite
                    population correction factor, to account for the fact that our original
                    sample of 200 cases was a significant proportion of the population.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-06-03-00390    N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   5
Δ       F I N D I N G S



During FY 2004, 74 percent of denial of payment             We estimate that of 697 DPNAs
 remedies were processed incorrectly, resulting             that were in effect during FY 2004,
         in overpayments exceeding $5 million               74 percent (516 cases) had
                                                            processing and/or payment errors
                      (see Table 1). In 40 percent of DPNA cases, errors resulted in one or
                      more inappropriate payments to skilled nursing facilities. This means
                      that noncompliant skilled nursing facilities admitted new Medicare
                      beneficiaries and received payment. For this group, we estimate that
                      3,133 Medicare claims were paid to 276 facilities for services rendered
                      during DPNAs. Resulting overpayments total more than $5 million for
                      the 1-year period. In 34 percent of cases, processing errors occurred but
                      did not result in claims paid in error, either because the facilities did
                      not have new Medicare admissions during the remedy periods or
                      because the facilities admitted new beneficiaries but did not submit
                      claims for them during the remedy periods.


                        Table 1: CMS and FI Processing of Medicare DPNA Cases in FY 2004
                                                                                         Estimated                        Estimated              Estimated
                                                                                         Number of                       Percentage                 Paid in
                                                                                             Cases                         of Cases                   Error
                        Processed Correctly                                                    182                             26%                     N/A
                        Processed Incorrectly                                                           516                                74%   $5,042,181
                          Resulting in Payment Errors                                                   276                                40%   $5,042,181
                          Processing Errors Only                                                        240                                34%         N/A
                          Total                                                                         697                          100%        $5,042,181
                        Source: Office of Inspector General analysis of 192 DPNA cases. Estimated number of

                        cases does not total 697 because of rounding. Confidence intervals are displayed in the

                        appendix.


                      Errors were attributable primarily to late processing and problems with the
                      provision of instructions
                      Processing a DPNA requires that the FI receive appropriate
                      instructions from CMS and create the necessary screening system, or
                      edit, to suspend claims for additional review. Until the edit is created,
                      the FI will have no mechanism to identify claims subject to DPNA
                      remedies. Late processing of the edit was the single largest cause of
                      processing errors, accounting for almost half of the errors identified (see
                      Table 2 on the next page). The other leading causes of error involved
                      communication breakdowns between CMS and the FIs and CMS
                      sending the processing instructions to the wrong FIs. Less common

    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T                  6
F   I N D I N G        S


                      sources of error included inappropriate deletion of the edits and human
                      error.



                        Table 2: Types of Errors Identified in DPNA Cases in FY 2004
                                                                                                              Estimated                        Estimated
                                                                                                             Number of                     Percentage of
                                                                                                            Error Cases                      Error Cases
                        Late Processing                                                                                    254                     49%
                        Communication Breakdown                                                                               87                   17%
                        Sent to Wrong FI                                                                                      73                   14%
                        Deleted Edit                                                                                          62                   12%
                        Human or Other Error                                                                                  40                    8%
                           Total                                                                                           516                    100%
                        Source: Office of Inspector General analysis of 192 DPNA cases. Confidence intervals are

                        displayed in the appendix.



                      Late processing of the DPNA. Forty-nine percent of errors resulted from
                      edits that were put into place after the beginning of the remedy periods.
                      If the edit is not in place when the remedy begins, there is a window of
                      time during which claims that should be denied may be processed and
                      incorrectly paid. Cases involving late processing of the DPNA included
                      both circumstances in which CMS did not provide the FI with
                      instructions until after the start date of the DPNA remedy, and
                      circumstances in which we were able to document that the FI had
                      indeed received instructions timely.
                      When a DPNA remedy is processed late, the FI is required to recover
                                                             18
                      payments for claims erroneously paid. To accomplish this, FIs should
                      retrospectively review claims to identify those inappropriately paid
                      prior to the creation of the edit and make necessary adjustments.
                      However, staff in several FIs told us that they do not consistently (and
                      in some cases, never) review previously paid claims when a DPNA
                      remedy is put into effect late.

                      Communication breakdowns between CMS and FIs. In 17 percent of error
                      cases, the FIs reported that they never received instructions to initiate
                      DPNA remedies. In these cases, it was often difficult to determine

                        18CMS, “Medicare Claims Processing Manual,” Chapter 6, § 50.6 (Rev. 1151,
                      January 11, 2007).



    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T                   7
F   I N D I N G        S


                      whether the instructions were misdirected, never sent by CMS, or
                      mishandled by the FIs. Of the 24 sample cases in this group, we were
                      able to document that CMS failed to send instructions for 7 DPNA
                      remedies. For the remaining 17 cases, we were unable to identify the
                      breakdown. In 16 of these 17 cases, CMS provided us some, although
                      frequently very limited, documentation that instructions were sent to
                      the FI, but the FI reported that instructions were never received. In the
                      other case, the FI reported that a breakdown occurred internally.
                      Documentation provided by CMS was often limited to a copy of the
                      imposition letter addressed to the facility administrator with a “cc”
                      notation to indicate that a copy was sent to the FI. In these cases, it is
                      difficult to ascertain whether instructions were actually sent and to
                      whom they were sent. However, our review demonstrates that a “cc”
                      copy of the imposition letter without specific instructions to the FI is not
                      always sufficient to alert the FI that it needs to process an edit.

                      Instructions sent to the wrong FI. Instructions for approximately
                      14 percent of error cases were sent to the wrong FIs. This was
                      evidenced by CMS’s responses to our case-specific questions and copies
                      of the instructions actually provided to the FIs.

                      At the time of our data collection, nursing facilities were able to choose
                      from two or more FIs to process their claims and could change their
                                              19 20
                      selection periodically.       CMS had to keep FI information current for
                      each nursing facility to ensure that DPNA instructions were directed to
                      the proper FI. According to CMS staff, CMS used two different
                      databases to identify which FI a facility had chosen. These two sources
                      were not always updated at the same time, so the FI information was
                      not always consistent or correct.

                      When a second quality check was skipped by the FI, payments were
                      made in error. Although it is not currently a requirement, some FIs
                      reported that they routinely check to verify that they have
                      responsibility for the nursing facility indicated in the instructions and
                      notify CMS and/or the appropriate FI when they discover an error. In


                        19 42 CFR 421.104(a) (2004) allowed providers to nominate an organization or agency to
                      serve as their FI. All nursing home providers had the option to select their regional FI, the
                      regional FI that served a corporate headquarters, or an FI that served providers across the
                      Nation.
                          20 The nursing home’s right to nominate its FI was repealed by section 911(b) of the
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                      P.L. No. 108-173 § 911(b). See also 71 FR 68183 (November 24, 2006).



    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   8
F   I N D I N G 
S


                      the 14 percent of cases identified by our review, the FIs either did not
                      recognize CMS’s error and incorrectly entered edits into their own
                      systems (in effect creating null edits), or the FIs realized that the
                      information was misdirected but did not notify CMS staff.

                      Deleted edits. In 12 percent of error cases, FI staff misinterpreted
                      CMS’s instruction to end the remedies as an instruction to rescind the
                      remedies. Consequently, the FIs repaid monies that had been
                      appropriately withheld from the facility. We reviewed the language in
                      CMS’s instructions to the FIs and found that the wording that most
                      frequently caused confusion was “we are now canceling the remedy.”
                      Although the letter containing this phrase went on to state the dates
                      that the DPNA was in effect, the FIs that made this mistake apparently
                      identified the operative word as “cancel.” Two FIs made this mistake
                      frequently, with related errors in over half of the sample cases we
                      reviewed for those FIs. However, one of them reported that it corrected
                      its procedures prior to our data request. Other FIs also made this
                      mistake, but did so only in isolated cases.

                      Other causes. Other problems, including human error, accounted for
                      8 percent of errors. In these cases, edits were in place timely but still
                      resulted in claims paid in error. The most frequently identified issue
                      was a manual bypass of the edit. In these cases, the edits properly
                      suspended the claims, but claims-processing personnel manually
                      processed the claims as payable. Although there are legitimate reasons
                      for a manual bypass, the FIs in these cases provided no rationale
                      supporting payment of these claims. Some of these claims were paid
                      after multiple submissions by a facility had been denied or rejected.
                      These errors may have resulted because a claims processor was
                      improperly trained or because the resubmission occurred after the edit’s
                      effective period had lapsed. Additionally, processing errors occurred
                      when data elements, such as dates or facility identifiers, were
                      incorrectly entered into the edit. These data entry errors can make the
                      edit ineffective at identifying claims subject to the DPNA remedy.




    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   9
F   I N D I N G        S


                                                                                                                                            21
                      Another problem we identified related to a system known as SuperOp.
                      Some claims that were processed through SuperOp bypassed the edit,
                      causing the DPNA status for the nursing facility to be overlooked.



           Approximately half of claims involving             We estimate that during our
                                                              sample year, 1,898 claims were
       readmissions lacked codes indicating the
                                                              processed and paid for residents
           readmission status, which made these
                                                              exempted from the DPNA remedy
        claims appear to be new admissions that               because they were identified as
                                should be denied              readmissions. Of these, less than
                                                              22
                      half (46 percent) were properly coded. According to CMS’s program
                      memorandum, “Fiscal Intermediary (FI) Instructions on Applying
                      Payment Bans on Skilled Nursing Facility (SNF) Admissions,” claims
                                                                                          23
                      for readmissions should be identified by including specific codes.
                      Although readmission claims are suitable for reimbursement during a
                      DPNA remedy, the absence of these codes causes these claims to appear
                      as if they are new admissions that should be denied. This creates
                      additional work for the FIs that will initially reject or deny the claims
                      and must reprocess the claims once additional information is supplied
                      by the facilities. Additionally, this problem limits CMS’s ability to
                      verify that claims for new admissions are appropriately denied under a
                      DPNA remedy.

                      FIs reported different processes for verifying the prior stay and
                      ensuring that the claim qualifies for readmission status. Several told us
                      that they have no verification processes at all and rely on statements by
                      the facilities. Others described ad hoc processes utilizing whatever
                      information is at hand. For example, one FI reported that it looks for a
                      prior admission and, if there is a discharge code, rejects the claim. This
                      procedure would help identify individuals who were previous residents
                      at the nursing home but do not qualify as readmissions because the

                         21 SuperOp is an automated program used by all FIs to identify and resolve claims
                      meeting certain predefined criteria. Processing logic within SuperOp allows identified
                      claims to be automatically modified without claims-processing personnel reviewing the
                      claims.
                          22 The percentage of readmissions properly coded is projected to be 46 percent, with a
                      confidence interval of 34 to 59 percent.
                          23 Readmission claims are distinguished by the inclusion of condition code 57 and
                      occurrence span code 78. CMS, Program Memorandum, Intermediaries/Carriers, “Fiscal
                      Intermediary (FI) Instructions on Applying Payment Bans on Skilled Nursing Facility
                      (SNF) Admissions,” Transmittal AB-01-131, September 21, 2001.



    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   10
F   I N D I N G        S


                      admissions represented new and unrelated spells of illness. However,
                      this practice would not identify first-time admissions that were
                      incorrectly coded as readmissions.




    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   11
R   E C O        M M E N D A T                         I O N               S
Δ       R E C O M M E N D A T I O N S

                      Our evaluation revealed that DPNAs were frequently mishandled in
                      FY 2004, with processing errors in almost three-quarters of remedy
                      cases. Although not all errors resulted in inappropriate payments to
                      facilities, we estimate that in FY 2004 approximately $5 million in
                      overpayments were made that should have been denied as a result of
                      DPNAs. These errors and overpayments limit the effectiveness of the
                      DPNA remedy, which is one of the strongest enforcement tools available
                      to CMS for managing nursing facility compliance with Federal
                      standards.

                      We recognize that recent changes related to Medicare contracting
                      reform and enhancements to CMS’s electronic tracking system for
                      nursing home enforcement cases, known as the Automated Service
                      Processing Environment (ASPEN) Enforcement Management system,
                      have the potential to improve processing of DPNAs. First, as part of
                      Medicare contracting reform pursuant to the Medicare Prescription
                      Drug, Improvement, and Modernization Act of 2003, work currently
                      conducted by FIs is gradually being assumed by Medicare
                      Administrative Contractors (MAC). As these new contractors begin to
                      administer claims within a geographic area, providers will be required
                      to submit claims to a designated MAC and will not be permitted to
                                                   24
                      routinely change contractors. This reform may make it less likely that
                      CMS will send instructions about DPNAs to the wrong MACs. Second,
                      in its comments regarding two recent OIG reports, CMS reported that
                      new features of the ASPEN Enforcement Management system enable
                      the system to provide CMS regional offices with early notification of
                                          25
                      impending DPNAs. If these features are utilized appropriately, this
                      enhancement may better enable CMS to provide timely notice of DPNAs
                      to FIs or MACs.

                      Although these changes may result in improved processing of DPNAs,
                      they may not fully address all of the types of errors identified in this
                      report. Therefore, we recommend that CMS:

                      Manage DPNA Cases To Ensure That All DPNA Instructions Are Sent
                      Timely and That FIs and MACs Retrospectively Review Cases That Are
                      Processed Late To Correct Any Payment Errors
                      Late processing of DPNAs accounted for nearly half of the error cases


                          24 71 FR 68228, 68229 (November 24, 2006).
                          25 OIG, “State Referral of Nursing Home Enforcement Cases,” OEI-06-03-00400; and
                      “Nursing Home Enforcement: Application of Mandatory Remedies,” OEI-06-03-00410.



    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   12
R   E C O        M M E N D A T                         I O N               S


                      we identified, and FIs self-reported that they do not consistently
                      attempt to retrospectively recoup payments that should have been
                      denied. Recently added features of the ASPEN Enforcement
                      Management system have improved CMS’s ability to monitor upcoming
                      DPNA dates (for 3-month DPNAs). CMS should utilize the ASPEN
                      Enforcement Management System to monitor these cases and ensure
                      that instructions are sent well in advance of those dates. Additionally,
                      reviewing any payments made prior to edit creation will enable FIs and
                      MACs to identify and recoup inappropriate payments.

                      Address Communication Breakdowns by Implementing a Standard
                      Format To Notify FIs or MACs That a DPNA Remedy Will Be in Effect
                      and Require Confirmation That Instructions Are Received and
                      Understood
                      Communication breakdowns and instructions sent to the wrong FIs
                      accounted for 31 percent of errors. Standard formats will help ensure
                      that instructions are recognized as such. Further, including
                      standardized language that is clear and comprehensible will help
                      prevent confusion, which caused inappropriate deletion of edits in
                      12 percent of errors. Additionally, a common procedure for confirming
                      receipt of instructions will help ensure that instructions are received
                      and understood by FIs and MACs. For instances in which the FI or
                      MAC does not confirm receipt, CMS should follow up to ensure that the
                      appropriate staff received the instruction.

                      Update and Clarify Guidance on Coding Readmissions and Verifying
                      Readmission Status for DPNA Claims
                      Approximately half of claims involving readmissions lacked proper
                      codes and FIs reported varied practices for handling readmission
                      claims. Although this problem does not result in overpayments, it does
                      create unnecessary work for the FIs and inhibits CMS’s ability to
                      monitor FI performance in implementing DPNAs. The guidance should
                      include information on how to handle readmission claims that lack the
                      proper codes and how to verify whether claims qualify as readmissions.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS agreed with our recommendations and outlined specific actions
                      that it will take to address each recommendation. These actions include
                      developing new internal procedures to help ensure that CMS effectively
                      communicates DPNA instructions to FIs and MACs, creating a protocol


    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   13
                  between CMS and contractors to ensure follow-up notification to CMS
                  that a DPNA was implemented as requested, and updating manual
                  instructions to clarify coding and verification requirements for DPNA
                  readmissions. As noted in CMS’s comments, FI activities are
                  transitioning to MACs. Consequently, this transition provides an
                  important opportunity for CMS to clarify the MAC’s role in processing
                  DPNAs. CMS’s response is included in its entirety as Appendix B.




OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   14
Δ   A P P E N D I X                                 A




                         Estimates and 95-Percent Confidence Intervals

           Overview                                                      Estimate                     Lower Bound                        Upper Bound
           Processed Correctly                                                182                             144                                219
           Processing Errors Only                                             240                             199                                280
           Payment Errors                                                     276                             234                                318
            Total                                                             697                             680                                714

                                                                   Percentage
           Types of Error                                            of Cases                         Lower Bound                        Upper Bound
           Late Processing                                               49%                                  42%                                56%
           Communication Breakdown                                       17%                                  12%                                22%
           Sent to Wrong FI                                              14%                                   9%                                19%
           Deleted Edit                                                  12%                                   7%                                17%
           Human or Other Error                                           8%                                   4%                                12%
            Total Errors                                                 74%                                  69%                                79%

           Impact of Errors                                            Estimate                       Lower Bound                        Upper Bound
           Total Cases in Error                                             516                                476                                554
           Total Claims in Error                                          3,133                              2,238                              4,027
           Dollars Paid in Error                                     $5,042,181                         $3,421,805                         $6,662,556

                                                              Percentage of
                                                               Readmission
           Readmissions                                             Claims
                                                                  Lower Bound          Upper Bound
           Improperly Coded
           Readmissions                                54%                   41%                 66%
           Properly Coded
           Readmissions                                46%                   34%                 59%
           Source: Office of Inspector General analysis of 192 denial of payment for new admission
           remedy cases.




OEI-06-03-00390     N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T              15
Δ   A P P E N D I X                               B


     Agency Comments




OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   16
A   P   P E N D       I X            ~           B




    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   17
A   P   P E N D       I X            ~           B




    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   18
A   P   P E N D       I X            ~           B




    OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   19
Δ   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Kevin K. Golladay,
                  Regional Inspector General for Evaluation and Inspections in the Dallas
                  regional office, and A. Blaine Collins, Deputy Regional Inspector
                  General.

                  Amy Ashcraft served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Dallas regional office
                  who contributed to the report include Diahann Williams and Anna
                  Urban; other regional and central office staff who contributed include
                  Sandy Khoury, Barbara Tedesco, and Kevin Farber.




OEI-06-03-00390   N U R S I N G H O M E E N F O R C E M E N T: P R O C E S S I N G D E N I A L S   OF   M E D I C A R E P AY M E N T   20
